No. 20-224

In the Supreme Court of the United
States
MARION E. PITCH AS PERSONAL REPRESENTATIVE OF THE ESTATE
OF ANTHONY S. PITCH, ET AL., PETITIONERS,
v.
UNITED STATES
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

CERTIFICATE OF ELECTRONIC SERVICE

Pursuant to Supreme Court Rule 29.3 and the Court’s April
15, 2020 Order, I certify that Petitioners and Respondent
consented to receive service of the Brief of Civil Rights Cold
Case Records Group as Amicus Curiae in Support of
Petitioners electronically and I caused electronic copies of
the brief to be served via email on all parties.
Executed on October 14, 2020.

WILLIAM M. SIMPICH
Counsel of Record
528 GRAND AVENUE
OAKLAND, CA 94610
(415) 542-6809
bsimpich@gmail.com
Counsel for Amicus Curiae

SERVICE LIST:
Counsel of record for Petitioners
Joseph Bell
Bell & Shivas
150 Mineral Springs Drive
Rockaway, NJ 07866
joebell@bsblawgroup.com
Counsel of record for respondent
Jeffrey Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

